No. 19AIN THE SUPREME COURT OF THE UNITED STATES
_________________
CHAD F. WOLF, ET AL.
APPELLANTS
v.
INNOVATION LAW LAB, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION FOR A STAY OF THE INJUNCTION ISSUED BY THE UNITED
STATES DISTRICT COURT FOR THE NORTHERN DISTRICT OF CALIFORNIA
AND FOR AN ADMINISTRATIVE STAY, via e-mail and first-class mail, postage prepaid,
this 6th day of March, 2020.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 6, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST: 19AWOLF V. INNOVATION LAW LAB, ET AL.
JUDY RABINOVITZ
MICHAEL TAN
OMAR JADWAT
LEE GELERNT
ANAND BALAKRISHNAN
DANIEL GALINDO
CELSO JAVIER PEREZ
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
IMMIGRANTS’ RIGHTS
PROJECT 125 BROAD ST., 18TH FLOOR
NEW YORK, NY 10004
PHONE: 212-549-2618
KATRINA EILAND
CODY WOFSY
JULIE VEROFF
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
IMMIGRANTS; RIGHTS PROJECT
39 DRUMM STREET
SAN FRANCISCO, CA 94111
PHONE: (415) 343-0770
MELISSA CROW
SOUTHERN PROVERTY LAW CENTER
1101 17TH STREET NW, SUITE 705
WASHINGTON, DC 20009
PHONE: 202-355-4471
GRACIE WILLIS
SOUTHERN PROVERTY LAW CENTER
150 EAST PONCE DE LEON AVE.,
SUITE 340
DECATUR, GA 30030
PHONE: 404-221-6700
SEAN RIORDAN
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION OF NORTHERN CALIFORNIA, INC.
39 DRUMM STREET
SAN FRANCISCO CA 94111
PHONE: 415-621-2493

BLAINE BOOKEY
KAREN MUSALO
KATHRYN JASTRAM
SAYONI MAITRA
ANNE PETERSON
CENTER FOR GENERAL AND
REGUGEE STUDIES
200 MCALLISTER STREET
SAN FRANCISCO, CA 94102
PHONE: 415-565-4877
STEVEN WATT
ACLU FOUNDATION HUMAN RIGHTS PROGRAM
125 BROAD STREET
18TH FLOOR
NEW YORK, NY 10004
PHONE: 212-519-7870

